HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With TCOM
International, Inc.," (A-03-06-00523)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Centers
Award Process for a Contract With MorganFranklin Corporation," (A-03-06-00520)
August 22, 2007
Complete
Text of Report is available in PDF format (84 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report is one of several reviews of procurements by PSC
and other components of the Department in response to Hurricanes Katrina and
Rita in 2005.
The objective of the audit was to determine whether PSC complied with Federal
Acquisition Regulation (FAR) and Health and Human Services Acquisition
Regulation requirements during the award process involving MorganFranklin
Corporation.  PSC generally complied with the requirements.  However, PSC did
not execute a written determination and findings that no contract type other
than a time-and-materials contract was suitable, as required by the FAR.
OIG recommended that PSC
execute a written determination and findings when awarding time-and-materials
contracts.  PSC agreed with the recommendation.